OFFICE OF INSPECTOR GENERAL

MEMORANDUM


     DATE:              April 28, 2005

REPLY TO
 ATTN OF:                Inspector General

 SUBJECT:               Semiannual Report

        TO:             Chairman

In compliance with Section 5 of the Inspector General Act, as amended, 5 U.S.C. App. 3, § 5, I
respectfully submit the Office of Inspector General (OIG) Semiannual Report summarizing the
activities and accomplishments of the OIG during the six-month period ending March 31, 2005.
In accordance with Section 5(b) of the Act, this Semiannual Report along with the report that you
as head of the agency prepares, should be forwarded to the appropriate Congressional oversight
committees within 30 days of your receipt of this report.

During this reporting period, as in the previous one, OIG activity continued to focus on the
Universal Service Fund activities because of continuing allegations of waste and fraud, and the
results of beneficiary audits performed by contract auditors and Commission staff. Our efforts in
this area have been summarized in a special section of this report entitled “Oversight of the
Universal Service Fund.”

The report details a number of audits underway and completed at the Commission during the
preceding six months including the annual financial statement audit, the Federal Information
Security Management Act (FISMA) evaluation and risk assessment, and several audits of
contractors and contractual activities.

Investigative personnel continued to address investigative issues referred to and developed by
this office. Where appropriate, investigative reports have been forwarded to management for
action.

This office remains focused upon providing our customers with the highest possible level of
professionalism and quality through our audits, investigations and consultations.



                                         H. Walker Feaster, III
                                         Inspector General

Enclosure

cc: Chief of Staff
    Managing Director
 Federal Communications
         Commission




 Office of the Inspector General
Semiannual Report to Congress
October 1, 2004 – March 31, 2005

                 H. Walker Feaster III
                 Inspector General
                      Table of Contents
Introduction ............................................................................. 2

Universal Service Fund........................................................... 3

Audits ....................................................................................... 7

Management .......................................................................... 22

Investigations ........................................................................ 23

Legislation ............................................................................. 25

IG Hotline ............................................................................... 26

Specific Reporting Requirements of the
Inspector General Act ........................................................... 28

OIG Reports With Questioned Costs ................................... 30

OIG Reports With Recommendation That
Funds Be Put To Better Use ................................................. 31




                                                   1
                        Introduction
The Federal Communications Commission (FCC) is an independent regulatory agency,
which was delegated authority by Congress under the Communications Act of 1934, as
amended by the Telecommunications Act of 1996. The FCC is charged with the
regulation of interstate and international communication by radio, television, wire, satellite
and cable. The FCC’s jurisdiction covers the fifty states, the District of Columbia and all
the U.S. possessions. Under the Communications Act, the FCC is mandated to make
rapid, efficient, nationwide and worldwide wire and radio communication service available
to all people in its jurisdiction. The FCC performs four major functions to fulfill this charge:

•   Spectrum allocation
•   Creating rules to promote fair competition and protect consumers where required by
    market conditions
•   Authorization of service
•   Enforcement

The Chairman and four Commissioners are appointed by the President and confirmed by
the Senate. Chairman Powell resigned on March 17, 2005. This caused a vacancy on
the Commission. Kevin J. Martin was designated Chairman on March 18, 2005.
Kathleen Q. Abernathy, Jonathan S. Adelstein and Michael J. Copps serve as
Commissioners. The majority of FCC employees are located in Washington, D.C. FCC
field offices and resident agents are located throughout the United States. FCC
headquarters staff are located in the Portals II building located at 445 12th St., S.W.,
Washington, D.C. 20554.

The Office of Inspector General (OIG) dedicates itself to assisting the Commission as it
continues to improve its effectiveness and efficiency. The Inspector General (IG), H.
Walker Feaster III, reports directly to the Chairman. The OIG staff consists of thirteen
professionals and a student intern. Principal assistants to the IG are: Steven Rickrode,
Assistant Inspector General (AIG) for Audits; Thomas Bennett, AIG for Universal Service
Fund Oversight; Charles J. Willoughby, AIG for Investigations; Thomas Cline, AIG for
Policy and Planning, and Thomas Holleran, AIG for Management. Mr. Willoughby also
serves as counsel.

This semiannual report includes the major accomplishments and general activities of the
OIG during the period of October 1, 2004 through March 31, 2005.




                                           2
    Universal Service Fund (USF)
        Independent Oversight of the Universal Service Fund (USF)

        Beginning with our semi-annual report for the period ending March 31, 2002, we
        have included a section highlighting our efforts to implement effective,
        independent oversight of the Universal Service Fund (USF)1. We decided it was
        necessary to highlight our efforts to provide independent oversight of the USF to
        ensure that Congress and other recipients of our semi-annual report clearly
        understood our concerns about this program. We have also used this section of
        the semi-annual report to identify obstacles to the effective implementation of our
        oversight program. Due to materiality and our assessment of audit risk, we have
        focused much of our attention on the USF mechanism for funding
        telecommunications and information services for schools and libraries, also
        known as the “Schools and Libraries Program” or the “E-rate” program.

        In this semi-annual report, we provide an update on our oversight activity during
        the reporting period. Specifically, we (1) discuss our participation in two
        congressional hearings related to waste, fraud and abuse in the E-rate program;
        (2) provide an update on OIG oversight activities; (3) provide an update on audits
        being conducted by other Federal Offices of Inspector General; and (4)
        summarize significant investigative activity.

        Congressional Hearings

        The United States Senate Committee on Commerce, Science and Transportation
        conducted a hearing on fraud, waste and abuse in the E-rate program on
        October 5, 2004. The Subcommittee on Oversight and Investigations of the
        House Committee on Energy and Commerce conducted a hearing on the E-rate
        program on March 16, 2005. Tom Bennett, the Assistant Inspector General for
        USF Oversight with the FCC OIG, testified in both hearings.

        Senate Committee on Commerce, Science and Transportation – October 5, 2004

        On October 5, 2004 the Senate Committee on Commerce, Science and
        Transportation held their first hearing on E-rate fraud, waste and abuse. The
        focus of this hearing was to discuss fraud, waste and abuse in the E-rate
        program. The Assistant Inspector General for USF Oversight testified on a panel
        that included George McDonald, Vice President of the Schools and Libraries
        Division of the Universal Service Administrative Company (USAC), Frank
        Gumper, Chairman of the USAC Board of Directors, and Winston Himsworth,
        President of E-rate Central.
        In his testimony, the Assistant Inspector General for USF Oversight provided a
        brief summary of OIG involvement in USF oversight and discussed in general
        terms concerns that the OIG has with the E-rate program. The Assistant
        Inspector General for USF Oversight discussed the following concerns:




1
    The USF is generated through contributions from providers of interstate telecommunications,
    including local and long distance phone companies, wireless and paging companies and pay phone
    providers. The Universal Service Administrative Company (USAC) administers the USF under
    regulations promulgated by the Federal Communications Commission (FCC).



                                                  3
Universal Service Fund (USF)
 •   lack of clarity regarding program rules;
 •   lack of timely and effective resolution of audit findings;
 •   weaknesses in program competitive procurement requirements;
 •   ineffective use of purchased goods and services;
 •   over-reliance on applicant certifications;
 •   weaknesses in technology planning; and
 •   issues relating to discount calculation and payment.

 House Subcommittee on Oversight and Investigations – March 16, 2005

 On March 16, 2005 the Subcommittee on Oversight and Investigations held their
 fourth hearing on E-rate fraud, waste and abuse. The focus of this hearing was
 on an audit conducted by the Government Accountability Office (GAO) of FCC
 Management of the E-rate program (GAO Audit Report No. GAO-05-151 entitled
 “Telecommunications: Greater Involvement Needed by FCC in the Management
 and Oversight of the E-Rate Program, released on March 16, 2005). The
 Assistant Inspector General for USF Oversight testified on a panel with Jeff
 Carlisle, Chief of the FCC Wireline Competition Bureau, and Mark L. Goldstein,
 Director of Physical Infrastructure Issues with GAO.

 In his testimony the Assistant Inspector General for USF Oversight provided a
 brief summary of OIG involvement in USF oversight and discussed in general
 terms concerns the OIG has with the E-rate program.

 Update on OIG Oversight Activities

 As we have discussed in previous semi-annual reports, the primary obstacle to
 implementation of effective, independent oversight has been a lack of adequate
 resources to conduct audits and provide audit support to investigations. This
 lack of resources has prevented us from completing the body of work necessary
 to assess fraud, waste and abuse at the program level. We are pleased to report
 that we have made significant progress addressing access to resources during
 this semi-annual reporting period.

 In January 2005, we added two (2) additional audit staff to the USF team,
 increasing to five (5) the total number of staff dedicated to USF oversight. We
 were advised by Chairman Powell’s office that the OIG would receive two (2)
 additional staff for USF oversight.

 In addition to audit staff, we have also requested appropriated funding to obtain
 contract support for our USF oversight activities. In our FY 2004 budget
 submission, we requested $2 million for USF oversight. That request was
 increased to $3 million in the President’s budget submission for FY 2004. This
 funding was not included in the Commission’s final budget for FY 2004 and
 report language indicated that monies for USF audits should come from the fund
 itself. In the FY2006 budget request funds in the amount of $ 3.17 million were
 requested for USF oversight.

 Based largely on that report language, we began to explore alternatives for
 obtaining access to contract audit support to implement the USF oversight
 portions of our audit plan. We have been working with USAC since last summer
 to establish a three-way contract under which the OIG and USAC can obtain
 audit resources to conduct USF audits. Under this contract, we intend to assess
 fraud, waste, and abuse at the program level by conducting a statistically valid


                                         4
Universal Service Fund (USF)
 sample of audits for each of the four USF funding mechanisms. The objectives
 of these audits are to: (1) detect waste, fraud and abuse by beneficiaries of the
 universal service support mechanisms, (2) deter waste, fraud and abuse by
 beneficiaries of the universal service support mechanisms, (3) generate insights
 about the compliance of beneficiaries with applicable law and the quality of
 administration of the universal service support mechanisms and (4) identify areas
 for improvement in the compliance of beneficiaries with applicable law and in the
 administration of the universal service mechanisms. An additional objective is to
 identify improper payments as defined by the Office of Management and Budget
 to estimate error rates for the Improper Payments Improvement Act of 2002
 (IPIA). We released a Request for Proposal in November 2004 and expect to
 complete the selection process very soon.

 We are also working with USAC and KPMG LLP, under contract to USAC, to
 conduct the fourth large-scale audit of E-rate beneficiaries. One hundred(100)
 beneficiaries are being audited as part of this project. The project was initiated in
 August 2004 and is expected to be completed next summer. A listing of all USF
 audits in process is included in the performance audit section of this semi-annual
 report.

 Audits Conducted by Other Federal Offices of Inspector General

 On January 29, 2003, we executed a Memorandum of Understanding (MOU)
 with the Department of the Interior (DOI) OIG. This MOU is a three-way
 agreement among the Commission, DOI OIG, and USAC for audits of schools
 and libraries funded by the Bureau of Indian Affairs and other universal service
 support beneficiaries under the audit cognizance of DOI OIG. Under the
 agreement, auditors from DOI OIG perform audits for USAC and the FCC OIG.
 In addition to audits of schools and libraries, the agreement allows for the DOI
 OIG to consider requests for investigative support on a case-by-case basis. In
 September 2004, we issued three (3) draft reports prepared by DOI OIG.
 Although the Commission’s Wireline Competition Bureau prepared responses for
 these three (3) reports, the Commission’s Audit Follow-up Official chose not to
 endorse those responses. We are waiting for the Commission to provide
 responses to these draft audit reports. We have been advised that the Wireline
 Competition Bureau is coordinating responses to these audit reports with the
 Office of the Chairman.

 We have also established a working relationship with the Office of Inspector
 General at the Education Department (Education OIG). In January 2004,
 Education OIG presented a plan for an audit of telecommunication services at
 the New York City Department of Education (NYCDOE). Because of the
 significant amount of E-rate funding for telecommunication services at NYCDOE,
 Education OIG has proposed that they be reimbursed for this audit under a three-
 way MOU similar to the existing MOU with DOI OIG. In April 2004, the Universal
 Service Board of Directors approved the MOU. In June 2004, the MOU was
 signed and the audit was initiated.

 Support to Investigations

 In addition to the audit component of our independent oversight program, we are
 providing audit support to a number of investigations of E-rate recipients and
 service providers. To implement the investigative component of our plan, we
 established a working relationship with the Antitrust Division of the Department of


                                           5
Universal Service Fund (USF)
 Justice (DOJ). The Antitrust Division has established a task force to conduct
 USF investigations comprised of attorneys in each of the Antitrust Division’s
 seven (7) field offices and the National Criminal Office. As of the end of the
 reporting period, we are supporting twenty-two (22) investigations and monitoring
 an additional fifteen (15) investigations.

 Significant accomplishments in investigative support during the reporting period
 are as follows:

 In December 2004, Inter-Tel Technologies Inc. pled guilty and agreed to pay a
 total of $8.71 million in criminal fines, civil settlement and restitution relating to
 charges of bid rigging and wire fraud in connection with the E-Rate program.
 Inter-Tel was charged with one count of allocating contracts and submitting
 rigged bids for E-Rate projects at two different school districts in Michigan and
 California. Inter-Tel also was charged with one count of wire fraud and aiding and
 abetting by willfully entering into a scheme to defraud the E-Rate program in San
 Francisco by inflating bids, agreeing to submit false and fraudulent documents to
 hide the planned installation of ineligible items, and submitting false and
 fraudulent documents to defeat inquiry into the legitimacy of the funding request.
 In January 2005, Inter-Tel received a notice of suspension and of proposed
 debarment from the E-rate program. The Inter-Tel case is part of a large, on-
 going investigation that we are continuing to support.

 In October 2004, Qasim Bokhari and Haider Bokhari pled guilty to charges of
 conspiracy, fraud, and money laundering involving the E-rate program.
 According to court papers, in 2001, Qasim Bokhari and his company submitted
 applications for E-Rate Program funding on behalf of 21 schools in the
 Milwaukee and Chicago areas totaling more than $16 million. Qasim Bokhari
 and his company eventually received more than $1.2 million for goods and
 services that were not provided to three of these schools. Additionally, according
 to the charges, Qasim Bokhari, Haider Bokhari, and Raza Bokhari conspired to
 conduct numerous financial transactions involving the proceeds of the fraud to
 conceal and disguise the source of the proceeds. These alleged financial
 transactions include wiring more than $600,000 to Pakistan, purchasing a
 residence, and acquiring several automobiles. In January 2005, Qasim Bokhari
 and Haider Bokhari were each sentenced to six-year prison terms. In February
 2005, Qasim Bokhari and Haider Bokhari received notices of suspension and
 proposed debarment from the E-rate program.

 Conclusion

 As a result of our involvement in E-rate beneficiary audits and as a result of our
 involvement in investigations, we continue to be concerned about fraud, waste
 and abuse in Universal Service Fund programs. We remain committed to
 meeting our responsibility for providing effective, independent oversight of the
 Universal Service Fund program. We believe we have made significant progress
 toward our goal of designing and implementing our oversight program. While the
 Commission has taken steps to address programmatic weaknesses, more work
 remains to be done. Through our participation in the fourth large-scale round of
 E-rate beneficiary audits with USAC and through audits that we anticipate
 conducting under our three-way agreement with USAC we are moving forward to
 evaluate the state of the program and identify opportunities for programmatic
 improvements.




                                           6
                                  Audits
I. Financial statement audits provide practical assurance about whether the
   financial statements of an audited agency present the financial position,
   results of operations, and costs in the standards of generally accepted
   accounting principles. These audits are used to decipher whether or not
   financial information is presented according to established or stated
   criteria. These audits also reveal if the firm’s internal control over
   financial reporting and/or safeguarding assets is designed to adequately
   fit the firm and if it is fully implemented to achieve the control objectives.

1. Report on the Federal Communications Commission Fiscal Year 2004
   Financial Statements (Audit Report No. 04-AUD-05-07 issued on
   November 15, 2004)

   In accordance with the Accountability of Tax Dollars Act of 2002, FCC prepared
   consolidated financial statements in accordance with Office of Management and
   Budget (OMB) Bulletin No. 01-09, Form and Content of Agency Financial
   Statements, amended, and subjected them to audit. The Chief Financial
   Officers Act of 1990 (CFO Act), amended, requires the FCC OIG, or an
   independent external auditor as determined by the Inspector General, to audit
   agency financial statements in accordance with Government Auditing Standards
   issued by the Comptroller General of the United States. Under a contract
   monitored by the OIG, Clifton Gunderson LLP (CG-LLP), an independent
   certified public accounting firm, performed the audit of FCC’s FY 2004
   consolidated financial statements in accordance with the aforementioned
   standards; OMB Bulletin No. 01-02, Audit Requirements for Federal Financial
   Statement, amended; and applicable sections of the U.S. Government
   Accountability Office (GAO)/President’s Council on Integrity & Efficiency (PCIE)
   Financial Audit Manual.

   In connection with the contract, OIG reviewed CG-LLP’s reports and related
   documentation and inquired of its representatives. This review, as differentiated
   from an audit in accordance with Government Auditing Standards, was not
   intended to enable us to express, and the OIG did not express, an opinion on
   FCC’s consolidated financial statements; conclusions about the effectiveness of
   internal control; conclusions on whether FCC’s financial management
   substantially complied with the Federal Financial Management Improvement Act
   1996; or conclusions on compliance with laws and regulations. CG-LLP is
   responsible for its report dated November 1, 2004 and the conclusions
   expressed therein. However, the OIG review disclosed no instances where CG-
   LLP did not comply, in all material respects, with Government Auditing
   Standards.

   Opinion on the Financial Statements

   CG-LLP issued an unqualified opinion on FCC’s Consolidated Balance Sheets as of
   September 30, 2004 and 2003, the related Consolidated Statements of Changes in Net
   Position and Custodial Activity. CG-LLP opined that the financial statements referred to
   above present fairly, in all material respects, the financial position of the FCC as of
   September 30, 2004 and 2003, its changes in net position and custodial activity for the
   years then ended in conformity with accounting principles generally accepted in the
   United States of America. Additionally, CG-LLP issued a qualified opinion on FCC’s
   Statement of Net Cost for the year ended September 30 2004 and an unqualified opinion
   for the year ended September 30, 2003. As a result of FCC management, in its
   representation letter to the auditor, not providing assurance on the accuracy and


                                           7
                                Audits
completeness of the fiscal years 2004 and 2003 Combined Statement of Budgetary
Resources and the Consolidated Statement of Financing, CG-LLP disclaimed its opinion
on these financial statements. As noted in its report, CG-LLP’s disclaimer of opinion is
different from that expressed in its previous report dated December 8, 2003.

Matters Pertaining to the Effectiveness of Internal Control Identified During
the Audit

In performing its internal control testing of controls necessary to achieve the
objectives in OMB Bulletin No. 01-02, CG-LLP identified matters relating to
significant deficiencies in the design or operation of FCC’s internal control that,
in its judgment, could aversely affect FCC’s ability to record, process,
summarize and report financial data consistent with the assertions by
management in the financial statements. Specifically, these matters were
categorized as material weaknesses and reportable conditions per definitions of
the American Institute of Certified Public Accountants.

CG-LLP identified material weaknesses in the areas of:

•   Auction Transactions
•   Oversight of Reporting Components
•   Universal Service Fund Financial Accounting and Reporting Controls
•   Reporting Components’ Budgetary Accounting
•   Information Technology
•   Cost Allocation Logic

CG-LLP identified additional reportable conditions not considered to be material
weaknesses, which include:

•   Financial Reporting
•   Cost Accounting
•   Payroll Activities
•   Debt Collection Improvement Act of 1996 Reporting
•   Electronic Data Processing Controls
•   Collateral for Deposits Held Outside of Treasury
•   Federal Managers’ Financial Integrity Act of 1982 Compliance and Reporting

Results of Tests of Compliance with Laws and Regulations

FCC management is responsible for complying with laws and regulations applicable to
the agency. To obtain reasonable assurance about whether FCC’s financial statements
are free of material misstatements CG-LLP performed tests of compliance with certain
provisions of laws and regulations, noncompliance with which could have a direct and
material effect on the determination of financial statement amounts and certain other laws
and regulations specified in OMB Bulletin No. 01-02, including the requirements referred
to in the Federal Financial Management Improvement Act of 1996. As appropriate, CG-
LLP limited its tests of compliance to these provisions and it did not test compliance with
all laws and regulations applicable to FCC.

Tests disclosed instances of noncompliance with specific laws and regulations
required to be reported under Government Auditing Standards and OMB Bulletin
No. 01-02 as follows:




                                          8
                                    Audits
   •   Chief Financial Officers Act of 1990
   •   Antideficiency Act
   •   OMB Circular No. A-129, Polices for Federal Credit Programs and Non-Tax
       Receivables
   •   Debt Collection Improvement Act of 1996
   •   Federal Financial Management Improvement Act of 1996

   In accordance with generally accepted government auditing standards the
   Independent Auditor’s Report prepared by CG-LLP is dated November 1, 2004,
   the last day of audit fieldwork. Commission management agreed with the
   results of the audit.

2. Report on the Federal Communications Commission Fiscal Year 2004
   Special-Purpose Financial Statements (Audit Report No. 04-AUD-11-25
   issued on November 18, 2004)

   The FCC prepares special-purpose financial statements to assist in the
   preparation and audit of the Financial Report of the United States (FR) using the
   Governmentwide Financial Report System (GFRS) and the Federal Agencies’
   Centralized Trial-Balance System (FACTS I). These statements, required by the
   U.S. Department of the Treasury Treasury Financial Manual (TFM), Volume I,
   Part 2, Chapter 4700, are not intended to be a complete presentation of the
   FCC’s financial statements.

   In accordance with TFM, 4705.55 - Audit Requirements for the Closing
   Package, OIG obtained an audit of these special-purpose financial statements in
   accordance with Government Auditing Standards issued by the Comptroller
   General of the United States under a contract monitored by the OIG. CG-LLP,
   an independent certified public accounting firm, performed the audit of related
   FY 2004 special-purpose financial statements in conjunction with the FCC’s FY
   2004 general purpose financial statement audit.

   In connection with the contract, OIG reviewed CG-LLP’s reports and related
   documentation and inquired of its representatives. The OIG review of CG-LLP’s
   work, as differentiated from an audit in accordance with Government Auditing
   Standards, was not intended to enable us to express, and the OIG did not
   express, an opinion on FCC’s special purpose financial statements; conclusions
   about the effectiveness of internal control; or conclusions on compliance with
   laws and regulations. CG-LLP is responsible for its report dated November 18,
   2004 and the conclusions expressed therein. However, the OIG review
   disclosed no instances where CG-LLP did not comply, in all material respects,
   with Government Auditing Standards.

   CG-LLP issued a qualified opinion on the reclassified Balance Sheet as of
   September 30, 2004 and the related reclassified Statements of Net Cost and
   Changes in Net Position for the year then ended (the special-purpose financial
   statements). CG-LLP opined that, except for the qualification, the special-
   purpose financial statements present fairly, in all material respects, the financial
   position of the FCC as of September 30, 2004, and its net costs and changes in
   net position for the year then ended in conformity with accounting principles
   generally accepted in the United States of America and the presentation
   pursuant to the requirements of the TFM Chapter 4700.




                                             9
                                   Audits
   In performing its internal control testing necessary to achieve the objectives of
   the TFM Chapter 4700 CG-LLP identified reportable conditions in internal
   control over the financial reporting process for the special-purpose financial
   statements in the areas of:

   •   Financial reporting
   •   Documentation of policies and procedures
   •   Failure to adhere to its internally negotiated agreed-upon lock dates for the GFRS
   •   Reclassifications

   CG-LLP’s tests of compliance with the TFM Chapter 4700 requirements
   disclosed no material instances of noncompliance that are required to be
   reported under Government Auditing Standards and OMB Bulletin No. 01-02.
   Certain immaterial instances of noncompliance were noted and reported to the
   FCC in a separate letter dated November 18, 2004.

   In accordance with Government Auditing Standards the Independent Auditor’s
   Report on Special-Purpose Financial Statements prepared by CG-LLP is dated
   November 18, 2004, the last day of audit fieldwork. Commission management
   agreed with the results of the audit.

3. Report on the Federal Communications Commission Fiscal Year 2004
   Agreed-Upon Procedures on Closing Package Intragovernmental Activity
   and Balances (Audit Report No. 04-AUD-12-26, issued on December 2,
   2004)

   In accordance with TFM 4705.75, IG Agreed-Upon Procedures for Federal
   Intragovernmental Activity and Balances, OIG obtained an attestation
   examination using the agreed-upon procedures for the purpose of assisting the
   Department of the Treasury’s Financial Management Service in the preparation
   of, and the GAO in the audit of, the consolidated financial statements of the U.
   S. Government as of and for the year ended September 30, 2004. Under a
   contract monitored by the OIG, CG-LLP, an independent certified public
   accounting firm, performed the agreed-upon procedures engagement in
   accordance with attestation standards established by the American Institute of
   Certified Public Accountants and Government Auditing Standards. In
   accordance with these standards, CG-LLP made no representation regarding
   the sufficiency of these procedures. The sufficiency of the procedures is solely
   the responsibility of the Financial Management Service, GAO and OMB.

   CG-LLP performed the agreed-upon procedures and reported on findings of
   differences between the closing package and the FCC’s audited financial
   statements and general ledgers. The OIG review of CG-LLP’s work, as
   differentiated from an audit in accordance with Government Auditing Standards,
   was not intended to enable us to make any representation regarding the
   sufficiency of the procedures, and the OIG did not provide any comments on
   their sufficiency. The report is provided for the purpose for which it was
   requested with no representation regarding the sufficiency of the procedures
   provided therein or for any other purpose. CG-LLP is responsible for its report
   dated December 2, 2004 and the conclusions expressed therein. However, the
   OIG review disclosed no instances where CG-LLP did not comply, in all material
   respects, with Government Auditing Standards.




                                            10
                                  Audits
II. Performance audits are systematic examinations of evidence for the
    purpose of providing an independent assessment of the performance of a
    government organization, program, activity or function, in order to provide
    information to improve public accountability to oversee or initiate
    corrective action.

1. Inspector General Statement on the Federal Communications
   Commission’s Fiscal Year 2004 Major Management Challenges (Report
   No.04-AUD-06-27 issued on October 15, 2004)

   In November 2000, the President signed the Reports Consolidation Act of 2000
   which requires Inspectors General to provide a summary and assessment of the
   most serious management and performance challenges facing Federal agencies
   and the agencies’ progress in addressing them. We performed this assessment
   for inclusion in the Fiscal Year 2004 FCC Performance and Accountability
   Report. We identified the following six significant management issues facing
   FCC for fiscal year 2004:
   • Reporting Component Investigations and Fraud
   • Financial Reporting
   • Reporting Components
   • Information Technology and Information Systems Security
   • Revenue Gap
   • Physical Security and Protection of Personnel

   On November 15, 2004, the Chairman provided comments on these challenges
   and a summary of the progress and status for each. In addition, he shared his
   commitment for resolving all the concerns that were identified.

2. Report of Defense Contract Audit Agency (DCAA) on Titan Corporation FY
   2004 Labor Timekeeping Review (Floorcheck) (Audit Report No. 6341-
   2005V10310002 issued on November 5, 2004)

   The purpose of this floorcheck was to assure that Titan Corporation’s employees
   are performing their assigned jobs and charging their time to appropriate tasks.
   The floorchecks were conducted during October 18-22, 2004. The floorchecks
   determined that one corrective action was necessary to improve the reliability of
   their labor accounting system. The contractor concurred with the finding and
   agreed to implement corrective actions.

3. Report of Defense Contract Audit Agency (DCAA) on Digital Systems
   Group, Inc. FY 2004 Labor Timekeeping Review (Floorcheck) (Audit Report
   No. 6701-2005K10310006 issued on November 24, 2004)

   The purpose of this floorcheck was to assure that Digital Systems Group’s
   employees are performing their assigned jobs and charging their time to
   appropriate tasks. The floorchecks were conducted during October 11-15,
   2004. The floorchecks determined that the contractor consistently complied with
   the established timekeeping system policies. DCAA’s floorcheck disclosed no
   significant deficiencies in the contractor’s timekeeping or labor systems.

4. Report of Defense Contract Audit Agency (DCAA) on AAC Associates, Inc.
   FY 2004 Labor Timekeeping Review (Floorcheck) (Audit Report No. 6141-
   2005S10310011 issued on December 3, 2004)



                                          11
                                    Audits
   The purpose of this floorcheck was to assure that AAC Associates’ employees
   are performing their assigned jobs and charging their time to appropriate tasks.
   The floorchecks were conducted during November 3-5, 2004. The floorchecks
   determined that corrective actions were necessary due to an unacceptable
   timekeeping procedure. The contractor concurred with the findings and agreed
   to implement corrective actions.

5. Report on the Audit of the Federal Communication's Commission Auction-
   Related Accounting (Audit Report No. 01-AUD-09-34 issued January 4,
   2005)

   The Omnibus Budget Reconciliation Act of 1993 authorized the Federal
   Communications Commission (FCC) to auction licenses for the use of portions
   of the electromagnetic spectrum. FCC held its first round of auctions in 1994.
   At the end of FY 2004, FCC completed 53 auctions with total receipts exceeding
   $14 billion and plans to hold more auctions in the future. The Commission has
   been authorized to retain a portion of auction revenues to recover the expenses
   in developing and implementing the auction program.        These additional funds
   are not required to go through FCC’s annual budgeting process for appropriated
   funds. Instead, they are annually apportioned to FCC by the Office of
   Management and Budget (OMB). However, before the FCC is allowed to
   access these funds, the Commission is required to issue an itemized statement
   of each expenditure in support of conducting auctions in its annual report to
   Congress.

   The objectives of this audit were: (1) to identify possible duplicative activities
   occurring in both the FCC’s auction-related accounting activities and FCC’s
   salary and expenditures-related accounting activities, and (2) to evaluate the
   annual Auctions Expenditure Report submitted to Congress in relation to the
   Reports Consolidations Act of 2000 and other reporting requirements of FCC.

   During our audit, we found two similar accounting activities occurring in both WTB and
   OMD: (1) the budget preparation process and (2) expenditure report data accumulation
   and reporting. Duplication of these activities has been inefficient and can lead to
   unreliable reporting. However, during FY 2002, at OMB’s request, the budget
   preparation process was removed from WTB and subsumed by OMD. Although this
   strengthens the Auction Cost Recovery budget development process, some weaknesses
   continue because of the timing, causing duplicative budgeting processes, unreliable
   auction cost estimates reported to Congress, and the potential for mismanagement of
   auction funds. In addition, we observed significant deficiencies in the annual Auctions
   Expenditure Report submitted to Congress. For an activity that consumes nearly 25
   percent of FCC’s resources, we found the report to be untimely, and providing little
   information informing Congress about how those resources have been applied.

   We made the following recommendations:

       1.   Coordinate the development of budgets.
       2.   Ensure that the Auction Cost Recovery estimates are developed using
            the budget process.
       3.   Develop and implement an agency-wide process that ensures
            duplicative requests are identified and prevented.
       4.   Assess methods for streamlining the auction expenditure reporting
            process.




                                             12
                                    Audits
        5.  Include specific data collection requirements for preparing an Auctions
            Expenditure Report.
        6. Develop a process to ensure that all financial data entered into FCC’s
            official financial system of record is not changed unnecessarily.
        7. Identify from the users of the report, members of Congress, OMB, and
            others, if they still need the report and/or what they need from the
            report.
        8. Identify from FCC managers what they need from auction expenditure
            data and incorporate those needs into the managerial cost accounting
            system.
        9. Coordinate the issuance of the Auctions Expenditure Report with
            issuance of FCC’s audited financial statements, making the report more
            timely and part of the financial audit process.
        10. Include the Chief Financial Officer and the Managing Director on
            concurrence of the draft report to ensure consistency and awareness of
            all FCC financial reports submitted to Congress.

    Commission management concurred with all of our recommendations, with the
    exception of partial concurrence to recommendation number 7.

6. Report of Defense Contract Audit Agency (DCAA) on Electronic
   Consulting Services, Inc. FY 2005 Labor Timekeeping Review (Floorcheck)
   (Audit Report No. 6151-2005A10310018 issued on February 7, 2005)

    The purpose of this floorcheck was to assure that Electronic Consulting
    Services’ employees are performing their assigned jobs and charging their time
    to appropriate tasks. The floorchecks were conducted on January 12, 2005.
    The floorchecks determined that the contractor consistently complied with the
    established timekeeping system policies. DCAA’s floorcheck disclosed no
    significant deficiencies in the contractor’s timekeeping or labor systems.

7. Report of Defense Contract Audit Agency (DCAA) on Neustar, Inc. FY 2001
   Incurred Cost Audit (Audit Report No. 6341-2001W10100001 issued on
   March 31, 2005)

    The primary objective of an incurred cost audit is to examine a contractor’s cost
    representations and express an opinion as to whether such incurred costs are
    reasonable; applicable to the contract; and not prohibited by the contract, statute
    or regulation, or by decision of or agreement with the contracting officer.
    Incurred cost audits are performed at the request of the Commission’s Contracts
    and Purchasing Center.

    DCAA reviewed the final indirect cost proposal submitted by Neustar, Inc. to
    establish indirect costs rates for FY 2001 incurred costs. These rates apply
    primarily to flexibly-priced contracts. DCAA limited the scope of their review
    based on no indications of audit risk being identified. DCAA found that, based
    upon their review, nothing came to their attention to indicate that costs claimed
    for FY 2001 were unallowable, unallocable or unreasonable.

III. Program audits assess whether the objective of both new and ongoing
     programs are proper, suitable or relevant, and also assess compliance
     with laws and regulations applicable to the program. This particular type
     of audit also serves to determine whether management has reported
     measures of program effectiveness that are valid and reliable.



                                             13
                                   Audits
1. FY 2004 Federal Information Security Management Act (FISMA)
   Independent Evaluation (Report No. 04-AUD-06-08 issued on October 6,
   2004)

   The overall objective of the FISMA independent evaluation is to evaluate the
   effectiveness of the Commission’s information security program. A key
   provision of the legislative requirements is that the Inspector General perform an
   annual independent evaluation to examine the Commission’s security program
   and practices for major applications. We issued our report summarizing the
   results of our evaluation (FY 2004 Federal Information Security Management
   Act (FISMA) Independent Evaluation and Risk Assessment, Report No. 04-
   AUD-06-08 issued on September 20, 2003. Generally, we found the
   Commission’s information technology security to be effective.

2. Report on the Cable Operation and Licensing System (COALS) Security
   (Report No. 03-AUD-09-12 issued on October 8, 2004)

   As a result of previous audit findings on the security of FCC web-based e-filing,
   we conducted a survey of Cable Operations & Licensing System (COALS) web
   application security. This survey assessed the Commission’s efforts to address
   audit observations and recommendations for this program area in general and
   the specific application.

   Our survey disclosed several positive observations for COALS security. We
   found that access control and monitoring by system administrators needs to be
   improved. Our report included recommendations to improve the security of the
   COALS E-Filing web application. Commission management agreed with the
   results of the survey.

3. Report on Follow-up to the Audit of Web Presence Security (Audit Report
   No. 03-AUD-09-21 issued on October 22, 2004)

   On June 13, 2001, we issued Audit Report No. 00-AUD-01-10, Audit of Web
   Presence Security. The report summarized the results of the audit of the FCC’s
   program for managing its web presence. Web presence was defined as the
   infrastructures developed to maintain the Commission’s systems that allow the
   public to submit applications and/or filings via the Internet. The objective of the
   FY 2001 audit was to measure the Commission’s success at securing its web
   portals. The audit concluded that the FCC had an active and generally effective
   program for managing web presence security. The report cited several positive
   computer security controls. However, 38 security findings, for which corrective
   actions were recommended, were also identified. OIG engaged KPMG LLP to
   perform a follow-up audit to ensure that appropriate corrective actions have
   been implemented and to test the current security posture of the FCC’s web
   presence.

   As in the original audit of the FCC’s web presence security, we identified several
   positive controls during the follow-up audit. However, the audit identified that
   corrective actions had not been fully implemented for all of the original audit
   findings. In addition, the follow-up audit disclosed five (5) new conditions. As a
   result of our review, we recommended that FCC prioritize resources to make
   improvements in its web security practices. Commission management
   concurred with eight findings and partially concurred with two findings.


                                            14
                                   Audits
4. Physical Security Review of Gettysburg Site Security (Audit Report No. 03-
   AUD-07-10-1 issued on October 28, 2004)

   This audit was conducted as part of our on-going physical security review
   program. The objectives of this review were to obtain and verify the status of
   the physical security posture at the FCC Gettysburg site and to identify security
   upgrades to ensure required compliance with Federal recommendations and
   other applicable regulations and standards. To accomplish the objectives of this
   audit, we contracted with the consulting firm of Job Performance Systems,
   (JPS).

   There were many positive safety and security measures in place at the
   Gettysburg facility. Most of the recommendations that had been listed in a prior
   audit of Gettysburg (Gettysburg Site Interim Physical Security Review, audit
   report number 02-AUD-03-11, dated October 28, 2003) had been resolved. We
   identified four (4) conditions for improvement for the Gettysburg facility. We
   recommended that the findings we identified be corrected to strengthen the
   Commission’s physical security program. Commission management agreed
   with the results of the audit.

5. Vendor Master Survey (Report No. 04-AUD-09-18 issued on November 22,
   2004)

   We performed this survey to ensure that the FCC is not sending payments to
   fraudulent businesses or addresses. The objective was to identify vendors that
   have both post office and street addresses and then to verify that the post office
   box belongs to that particular company.

   We analyzed the FCC vendor master list and identified vendors that had post
   office box addresses. We then sent letters to the post office responsible for
   those boxes to confirm the name and address associated with the box. We
   received an adequate level of response to these letters and follow-up inquiries to
   provide adequate assurance that the FCC vendor master list was accurate and
   did not contain fraudulent addresses.

6. Survey on Regulatory Fees (Report No. 04-AUD-02-03 issued on December
   20, 2004)

   The collection of regulatory fees has been an important function of the
   Commission. In recent years, the commission has collected about $250 million
   in regulatory fees annually. The objective of this survey was to examine the
   regulatory fee process to determine that we can be reasonably assured that all
   applicable fees are being collected. The scope of the survey was limited to the
   regulatory fees assessed for mass media licensees.


   We found that the FCC has implemented numerous improvements in the
   regulatory fee collection process. However, we noted that several concerns
   exist in the management and collection of fees. In FY 2005 OIG will initiate an
   audit to examine the licensing fee collection process to determine if we can be
   reasonably assured that all applicable licensing fees are being collected. We
   will develop the collection of fees and the systems used to develop fees and
   maintain information on regulated entities into a major audit area in future years,


                                            15
                                   Audits
   to include audits to assess the risks associated with fees, the controls over the
   fees collection process, the information systems used to administer fees
   collections and tests of compliance of regulated entities with regulatory fee
   requirements.

7. Report on Audit of the Federal Communications Commission Prompt
   Payment Policies and Procedures (Audit Report No. 04-AUD-08-13 issued
   on March 22, 2005)

   The objective of this audit was to determine whether the Commission’s bill
   paying policies and procedures comply with the Prompt Payment Act.

   Overall, we determined that the Commission is generally compliant with the Act.
   However, we identified that miscommunication or confusion between the FCC’s
   Contracts and Purchasing Center and the Travel Operations Group (TOG)
   resulted in more than 30% of vendor profiles input into the FFS vendor database
   not being identified as prompt payment eligible and instances occurred where
   vendors were paid late due to delays in obtaining payment approvals from
   Contracting Officer’s Technical Representatives (COTR). As a result, we
   recommended that FCC management: 1) perform a comprehensive review of all
   vendor information to ensure that vendors are properly identified as prompt pay
   eligible and correct all vendor information that is not properly coded; 2) conduct
   a thorough review to identify vendors that are owed late payment penalties; and
   3) implement policies and procedures to ensure that vendor information and
   system edit reports are reviewed periodically. We also recommended that
   management insure that all responsible FCC units are complying with the
   Commission’s accounts processing policies and procedures and investigate
   areas for improving the time it takes to process, approve, and pay invoices.
   Commission management agreed with the results of the audit.

8. Report on FY 2004 North American Numbering Plan Administrator Viability
   Audit (Audit Report No. 04-AUD-08-14 issued on March 24, 2005)

   The objective of this audit, requested by Commission management, was to
   determine the contractor’s, NeuStar, compliance with contractual requirements
   intended to ensure the seamless transfer of the North American Numbering Plan
   Administrator (NANPA) system to a successor in the event of the contract’s
   termination or expiration of term. We contracted with KPMG, LLP to perform
   this audit.

   Overall, we determined that NeuStar is generally compliant with the
   requirements of the NANPA contract for the system’s transferability. Our audit
   identified several positive observations and two (2) audit findings that require
   resolution. We also identified several areas where the FCC can improve upon
   the effectiveness of its management of the NANPA contract with NeuStar.
   Contractor management agreed with the results of the audit.

9. Report on FY 2004 Thousands-Block Pooling System Viability Audit (Audit
   Report No. 04-AUD-08-15 issued on March 24, 2005)

   The objective of this audit, requested by Commission management, was to
   determine the contractor’s, NeuStar, compliance with contractual requirements
   intended to ensure the seamless transfer of the Thousands-Block Pooling
   system to a successor in the event of the contract’s termination or expiration of


                                            16
                                    Audits
    term. We contracted with KPMG, LLP to perform this audit.

    Overall, we determined that NeuStar is generally compliant with the
    requirements of the Thousands-Block Pooling contract for the system’s
    transferability. Our audit identified several positive observations and five (5)
    audit findings that require resolution. We also identified several areas where the
    FCC can improve upon the effectiveness of its management of the Thousands-
    Block Pooling contract with NeuStar. Contractor management agreed with the
    results of the audit.

IV. Work-in-process reports on the following audits that were not completed
    as of the date of the publication of this report.

    In our previous Semiannual Report (for the six month period ending March 31,
    2005) we reported seventeen (17) audits and three (3) surveys in progress as
    well as our on-going contracting services. Of the seventeen (17) open audits,
    eleven (11) have been completed and two (2) surveys remain in progress.

    The following audits and surveys are in process:

1. Audit of the Federal Communications Commission's Fiscal Year 2005
   Financial Statement

    This audit, required by the Accountability for Tax Dollars Act of 2002, is
    important both internally to the Commission’s operations and necessary in
    support of the audit of the Financial Report of the United States. Additionally,
    the Department of the Treasury has established a Closing Package process
    requiring agency OIG’s to issue an opinion that the process used for submitting
    financial data into GFRS has been reclassified correctly from the audited
    financial statements.

    The objective of this audit is to provide an opinion on the FY 2005 consolidated
    financial statements. With the assistance of an independent public accounting
    firm, the OIG audits the compiled annual financial statements in accordance with
    established Federal guidance. Follow-up procedures will address any identified
    material weaknesses and reportable conditions from the FY 2004 audit. We
    anticipate issuing an audit report by November 15, 2005 in order to meet
    accelerated reporting time frames and issuance of an opinion on the closing
    package by November 17, 2005 (per draft OMB guidance) as required by the
    Department of the Treasury.

2. Continuity of Operations (COOP) Audit

    In the post 9-11 environment, contingency planning and business continuity are
    critical. In 2002, the FCC began to develop business continuity plans. The
    objective of this audit is to determine the progress of FCC’s contingency
    planning and business continuity program and determine if the FCC has a
    useable and viable program. This review will provide the Chairman with an
    independent and comprehensive analysis on the current posture of the FCC’s
    business continuity program.

3. Audit of Integrated Spectrum Auctions System

    The Integrated Spectrum Auctions System (ISAS) is planned to be the


                                            17
                                    Audits
   replacement for the Automated Auctions System (AAS). Automation of
   spectrum auctions is a critical activity at the FCC. The objectives of this review
   are to: (1) monitor and assess compliance of ISAS with the Commission’s
   systems development life cycle (SDLC); (2) establish if effective security
   controls have been built into ISAS; (3) measure compliance with Federal capital
   investment regulations; (4) determine that the ISAS project has not experienced
   any significant cost overruns, unanticipated expenditures, and project delays.

4. Audit of Wireless Network Controls

   Wireless networking holds promise for more effective communications.
   However, if not configured correctly, a number of security problems can occur.
   The objective of this audit is to determine the extent and effectiveness of
   security controls over the FCC’s wireless network. We will evaluate the efficacy
   of wireless networking security controls, including a review of wireless security
   settings, controls over wardriving or drive-by hacking, use of encryption,
   identification of unauthorized wireless users and wireless intrusion detection.

5. Security of the FCC Network Infrastructure

   The objective of this audit will be to examine the Information Technology (IT)
   environment supporting the FCC’s network infrastructure to ensure that the
   systems are adequately secured consistent with Federal regulations governing
   the management of critical information systems. The OIG will review major
   categories of general controls associated with the network security such as
   access controls, service continuity and security program planning and
   management. The scope of this audit will include the network infrastructure
   managed by the Office of Managing Director’s Information Technology Center
   (ITC) and the Auctions and Industry Analysis Division of the Wireless
   Telecommunications Bureau.

6. Audit of Mailroom Safety and Security

   This audit is being conducted as part of our examination of the FCC’s security
   posture. The objective of this work is to identify vulnerabilities and opportunities
   for improvement in the safety and security of the FCC’s mail room operations.

7. Spyware Survey

   Spyware is considered to be a serious IT security issue. This survey will identify
   and measure spyware on selected FCC workstations and laptops to determine if
   security and control issues are disclosed.

8. Audit of FCC Contracting and Purchasing Activities

   The purpose of the audit is to determine if the Commission properly procured
   goods and services and disbursed funds in accordance with Federal purchasing
   requirements and its own procurement policies and procedures. Primary audit
   objectives will include determining whether the Commission solicited, awarded
   and administered contracts in accordance with Federal and Commission
   requirements; insured that expenditures were reasonable and necessary;
   insured purchases were under contract when warranted; and structured and
   organized its purchasing and contract funding functions efficiently.




                                            18
                                   Audits
9. Payroll Management and Financial Controls Audit

   The purpose and objective of the audit is to document, review and test the
   payroll process by documenting all phases of the payroll process; documenting
   key internal controls over payroll and related areas; testing key controls. We will
   ensure transactions recorded in the payroll system are supported by appropriate
   pay-affecting documents and that costs are charged to the right program and
   perform separate tests on leave and earnings data while assessing the risk of
   errors or other problems in recording, reviewing and reconciling payroll
   transactions.

10. Defense Contract Audit Agency (DCAA) Incurred Cost Audits

   The primary objective of an incurred cost audit is to examine a contractor’s cost
   representations and express an opinion as to whether such incurred costs are
   reasonable; applicable to the contract; and not prohibited by the contract, statute or
   regulation, or by decision of or agreement with the contracting officer. Incurred cost
   audits are performed at the request of the Commission’s Contracts and Purchasing
   Center. DCAA currently has audits in-process of final indirect cost proposals submitted
   by Neustar Inc. for FYs 2002 and 2003, and by Titan Systems for FY 2003.

11. Survey of the USF High Cost Program

   During fiscal year 2003 we initiated a survey of the USF High Cost program.
   This program provided $3.4 billion in FY 2004 in support to telecommunication
   carriers in high cost/rural service areas. The program has not been subjected to
   a comprehensive program of audit and oversight by this office. We are
   performing an audit survey of this program to identify areas of risk, potential
   vulnerabilities, and compliance with program requirements and regulations. The
   results of the survey will be used to design an oversight program to ensure the
   High Cost Program is not subject to fraud, waste and abuse.

12. Audits of E-rate Beneficiaries

   As discussed in the report section Independent Oversight of the Universal
   Service Fund (USF), we have a number of audits of e-rate beneficiaries in
   process. The following table lists the audits and their status.




                                            19
                                     Audits

Auditee                                   Location              Auditor    Status
Bureau of Indian Affairs (BIA)            Washington, DC        DOI OIG    In process
St. Joseph High School                    St. Croix, VI         DOI OIG    Draft report
St. Mary’s Catholic School                Christiansted, VI     DOI OIG    Draft report
St. Patrick School                        Frederiksted, VI      DOI OIG    Draft report
VI Department of Education                St. Thomas, VI        DOI OIG    In process
Brevard County School District            Viera, FL             FCC OIG    In process
New York City Department of Education     New York, NY          DOE OIG    In process
Denver Public Schools                     Denver, CO            KPMG LLP   In process
Harlandale Independent School District    San Antonio, TX       KPMG LLP   In process
Providence Public Schools                 Providence, RI        KPMG LLP   In process
Sunnyside Unified School District 12      Tucson, AZ            KPMG LLP   In process
Cincinnati City School District           Cincinnati, OH        KPMG LLP   In process
Rhode Island Department of
Elementary and Secondary Education        Providence, RI        KPMG LLP   In process
Rio Grande City Consolidated ISD          Rio Grande City, TX   KPMG LLP   In process
Advanced Education Services               Colton, CA            KPMG LLP   In process
Long Beach Unified School District        Long Beach, CA        KPMG LLP   In process
North East Independent School District    San Antonio, TX       KPMG LLP   In process
Delano Joint Union High School District   Delano, CA            KPMG LLP   In process
Grant Joint Union High School District    Sacramento, CA        KPMG LLP   In process
San Diego County Office of Education      San Diego, CA         KPMG LLP   In process
Baltimore City Public School District     Baltimore, MD         KPMG LLP   In process
Fairfax County Public Schools             Fairfax, VA           KPMG LLP   In process
Long Branch School District               Long Branch, NJ       KPMG LLP   In process
Municipal Telephone Exchange              Baltimore, MD         KPMG LLP   In process
Alabama Super Computer Authority          Montgomery, AL        KPMG LLP   In process
Charleston County School District         Charleston, SC        KPMG LLP   In process
Clark County School District              Las Vegas, NV         KPMG LLP   In process
Dallas Independent School District        Dallas, TX            KPMG LLP   In process
Department of Information Systems
State of Arkansas                         Little Rock, AR       KPMG LLP   In process
Dorchester County School District #4      Saint George, SC      KPMG LLP   In process
El Monte City Elementary School
District                                  El Monte, CA          KPMG LLP   In process
Fontana Unified School District           Fontana, CA           KPMG LLP   In process
Gallup-McKinley County School District    Gallup, NM            KPMG LLP   In process
San Felipe – Del Rio City ISD             Del Rio, TX           KPMG LLP   In process
Stockton City Unified School District     Stockton, CA          KPMG LLP   In process
Buchanan County School District           Grundy, VA            KPMG LLP   In process
Brownsville Independent School District   Brownsville, TX       KPMG LLP   In process
Aldine Independent School District        Houston, TX           KPMG LLP   In process
Edinburg Independent School District      Edinburg, TX          KPMG LLP   In process
Houston Independent School District       Houston, TX           KPMG LLP   In process
Iowa Department of Education              Des Moines, IA        KPMG LLP   In process
Garden Grove Unified School District      Garden Grove, CA      KPMG LLP   In process
South Carolina Division of the State      Columbia, SC          KPMG LLP   In process


                                              20
                                     Audits
Chief Information Officer
Pharr – San Juan – Alamo Independent
School District                          San Juan, TX           KPMG LLP         In process
Pomona Unified School District           Pomona, CA             KPMG LLP         In process
Florida Information Resource Network     Tallahassee, FL        KPMG LLP         In process
Texas Youth Commission                   Austin, TX             KPMG LLP         In process
Berkeley County School District          Moncks Corner, SC      KPMG LLP         In process
Eastern Nebraska Distance Learning
Consortium                               Fremont, NE            KPMG LLP         In process
Dougherty County School District         Albany, GA             KPMG LLP         In process
Montgomery County School District        Montgomery, AL         KPMG LLP         In process
Orleans Parish School District           New Orleans, LA        KPMG LLP         In process
Kayenta Unified School District 27       Kayenta, AZ            KPMG LLP         In process
Weslaco Independent School District      Weslaco, TX            KPMG LLP         In process
LaJoya Independent School District       LaJoya, TX             KPMG LLP         In process
Pasadena Independent School District     Pasadena, TX           KPMG LLP         In process
Premont Independent School District      Premont, TX            KPMG LLP         In process
Navajo Nation Library Consortium         Window Rock, AZ        KPMG LLP         In process
Wilson School District 7                 Phoenix, AZ            KPMG LLP         In process
Los Angeles Unified School District      Los Angeles, CA        KPMG LLP         In process
Prince Georges County Schools            Upper Marlboro, MD     FCCOIG/USAC      In process


  13. Audit Support for USF Investigations

      In addition to the audit component of our independent oversight program, we are
      providing audit support to a number of investigations of E-rate recipients and
      service providers. To implement the investigative component of our plan, we
      established a working relationship with the Antitrust Division of the Department
      of Justice (DOJ). The Antitrust Division has established a task force to conduct
      USF investigations comprised of attorneys in each of the Antitrust Division’s
      seven (7) field offices and the National Criminal Office. As of the end of the
      reporting period, we are supporting twenty-two (22) investigations and
      monitoring an additional fifteen (15) investigations.




                                             21
                      Management
Specialized Training and Activities

In our continuing effort to expand the expertise of our audit staff, one
auditor attended the International Banking and Money Laundering
training at the Federal Law Enforcement Agency in Georgia.
Additionally, staff took training from the Inspector General Criminal
Investigative Academy and other technical seminars.

Report Availability

The OIG and other types of reports can generally be obtained via the
Internet from the OIG web page located on the FCC website at
http://www.fcc.gov/oig. However, OIG reports containing sensitive or
proprietary information will be restricted to specific individuals and
organizations with a need to know the detailed information.

Internships

The OIG welcomes college interns during the fall, spring and summer.
Most of these students take their internships for credit. Recent interns
have come from schools across the country, including Hamilton College,
UC Berkeley, UC Davis, American University, Georgetown University,
DePauw University, University of North Carolina, Xavier University, and
James Madison University.

These internships prove to be a rewarding experience for both parties.
Students leave with a good understanding of how a government agency
is run, and they have the opportunity to encounter the challenges
involved in governance and regulation. In turn, the office benefits from
the students’ excellent work performance that reflects their youth and
exuberance.

Visio Information Systems Audits Application

In order to organize our information systems (IS) audits and to ensure we
understand the relationships between the major information technology (IT)
applications at the FCC, we designed a Microsoft Visio application that visually
represents the FCC IT applications and the OIG IS audits that have been
conducted on these systems. The objectives of this project were to provide a
tool that represents the scope of the FCC IT program, provides for OIG audit
continuity and identifies areas where IT audit coverage needs strengthening.
The resulting flowchart diagram contains links to prior audit work, risk
assessments, and can be updated to include new audit information.




                                         22
                    Investigations
OVERVIEW

Investigative matters pursued by this office are generally initiated as a result of
allegations received through the OIG hotline or from FCC managers and
employees who contact the OIG directly. Investigations may also be predicated
upon audit or inspection findings of fraud, waste, abuse, corruption, or
mismanagement by FCC employees, contractors, and/or subcontractors. Upon
receipt of an allegation of an administrative or criminal violation, the OIG usually
conducts a preliminary inquiry to determine if an investigation is warranted.
Investigations may involve possible violations of regulations regarding employee
responsibilities and conduct, federal criminal law, and other regulations and
statutes pertaining to the activities of the Commission. Investigative findings may
lead to criminal or civil prosecution, or administrative action.

The OIG also receives complaints from the general public, both private citizens
and commercial enterprises, about the manner in which the FCC executes its
programs and oversight responsibilities. All complaints are examined to
determine whether there is any basis for OIG audit or investigative action. If
nothing within the jurisdiction of the OIG is alleged, the complaint is usually
referred to the appropriate FCC bureau or office for response directly to the
complainant. The OIG continues to serve as a facilitator with respect to the
Commission responding to complaints that are outside the jurisdiction of this
office. In many instances where the nature of the complaint does not fall within
the jurisdiction of the OIG, a copy of the response is also provided to the OIG.
Finally, matters may be referred to this office for investigative action from other
governmental entities, such as the General Accounting Office, the Office of
Special Counsel or congressional offices.


ACTIVITY DURING THIS PERIOD

Forty-five cases were pending from the prior period. Thirty-seven of those cases
involve the Commission’s Universal Service Fund (USF) program and have been
referred to the Federal Bureau of Investigation (FBI) and/or the Department of
Justice. An additional five non-USF and eleven USF related complaints were
received during the current reporting period. Over the last six months twenty-two
cases, thirteen USF and nine non-USF related, have been closed. A total of
thirty-nine cases are still pending, of which thirty-five relate to the USF program.
The OIG continues to monitor, coordinate and/or support activities regarding
those thirty-five investigations. The investigations pertaining to the pending four
non-USF cases are ongoing.

STATISTICS

Cases pending as of September 30, 2004………………….………….45

New cases.……………………………………………………………….. 16

Cases closed………………………………………………………………22

Cases pending as of March 31, 2005…....……………………………..39




                                         23
                     Investigations
SIGNIFICANT INVESTIGATIVE CASE SUMMARIES

•   The OIG initiated an inquiry into the possible improper destruction and/or
    removal of information on a Commission computer work station. Through
    investigation and inquiry, it could not be determined that information was
    destroyed and/or removed improperly from the workstation in question. It
    was determined that information thought to have been removed had not in
    fact been removed or destroyed. Accordingly, no misconduct was found and
    the matter was closed.

•   The OIG initiated two inquiries into the release of non-public information with
    respect to the Commission’s consideration of matters related to spectrum
    allocation and spamming. The OIG was unable to develop any information
    conclusively narrowing the release of the information to sources within the
    Commission. Also, the OIG was unable to determine to its satisfaction that
    the substance of what was released was improper and/or that such releases
    were intentional. Accordingly, it was determined that no further action was
    warranted and both matters have been closed.

•   The OIG initiated an inquiry into allegations of improper conduct by a
    Commission employee with respect to the processing of a consumer
    complaint. Specifically, it was alleged the employee had given preferential
    treatment and improper consideration in the processing of the complaint.
    The OIG found insufficient evidence to substantiate the allegations and thus
    no evidence of misconduct, and the matter has been closed.

•   Based upon the receipt of a complaint alleging the improper accessing by an
    employee of inappropriate sites on the Internet, an inquiry was initiated. As a
    result of inquiry, no evidence of the alleged conduct was found. Accordingly
    the matter has been closed.

•   During this period, inquiries have also been initiated into allegations
    concerning possible conflicts of interest by an employee in the performance
    of official duties and possible time and attendance abuse by an employee.
    Both inquiries are currently pending.

The OIG continues to coordinate and provide assistance to law enforcement
entities with respect to investigations pertaining to infractions within the Universal
Service Fund program of the Commission.




                                          24
                               Legislation
OVERVIEW

      Pursuant to section 4(a)(2) of the Inspector General Act of 1978(IG Act), as amended,
      our office monitors and reviews existing and proposed legislative and regulatory items for
      their impact on the Office of the Inspector General and the Federal Communications
      Commission programs and operations. Specifically, we perform this activity to evaluate
      their potential for encouraging economy and efficiency and preventing fraud, waste, and
      mismanagement.



LEGISLATIVE ACTIVITY DURING THIS PERIOD

      The Counsel to the IG continued to monitor legislative activities affecting the activities of
      the OIG and the FCC. During this period, this office continued to monitor legislation and
      legislatively related proposals, which directly or indirectly impact on the ability of
      Designated Federal Entity IGs to function independently and objectively. As previously
      noted, the office monitored the legislation granting statutory law enforcement authority to
      certain designated OIGs. This office was not among the designated OIGs under the
      legislation. However, again as previously noted the legislation was monitored with
      respect to any possible indirect impact that it may have on this office’s operations. Under
      the legislation, there are peer review requirements for the designated OIGs that may
      have an impact on the non-designated OIGs. This office has worked with and
      participated in discussions with other OIGs concerning the implementation of a voluntary
      peer review process for non-designated OIGs, and will be participating in that process.




                                               25
                            IG Hotline
During this reporting period, the OIG Hotline Technician received fifty-nine (59)
hotline calls to the published hotline numbers of (202) 418-0473 and 1-888-863-
2244 (toll free). The OIG Hotline continues to be a vehicle by which Commission
employees and parties external to the FCC can contact the OIG to speak with a
trained Hotline Technician. Callers who have general questions or concerns not
specifically related to the missions or functions of the OIG office are referred to
the FCC National Call Center (NCC) at 1-888-225-5322. In addition, the OIG
also refers calls that do not fall within its jurisdiction to such other entities as other
FCC offices, federal agencies and local or state governments. Examples of calls
referred to the NCC or other FCC offices include complaints pertaining to
customers’ phone service and local cable providers, long-distance carrier
slamming, interference, or similar matters within the program responsibility of
other FCC bureaus and offices.




                       Hotline Calls Record
                  October 1, 2004 - March 31, 2005


                                                                      FCC Consumer
              24%                                                     Hotline
                                                                      Other Federal
                                                                      Agencies
                                                                      Other FCC
         7%                                           53%
                                                                      Offices
               16%                                                    OIG Staff




                                           26
                      IG Hotline
Report Fraud, Waste or Abuse to:
Office of the Inspector General
Federal Communications Commission



CALL
Hotline: (202) 418-0473
or
(888) 863-2244

www.fcc.gov/oig


You are always welcome to write or visit.
Federal Communications Commission
Portals II Building
445 12th St., S.W. –Room #2-C762
Washington, D.C. 20554




                                27
                 Specific Reporting Requirements
                   of the Inspector General Act

        The following summarizes the Office of Inspector General response to the 12
        specific reporting requirements set forth in Section 5(a) of the Inspector General
        Act of 1978, as amended.

1. A description of significant problems, abuses, and deficiencies relating to the administration of
programs and operations of such establishment disclosed by such activities during the reporting
period.

Refer to the Section of the semiannual report entitled “Universal Service Fund” on pages 3
through 6.

2. A description of the recommendations for corrective action made by the Office during the
reporting period with respect to significant problems, abused, or deficiencies identified pursuant to
paragraph (1).

Refer to the Section of the semiannual report entitled “Universal Service Fund” on pages 3
through 6.

3. An identification of each significant recommendation described in previous semiannual reports
on which corrective action has not yet been completed.

No significant recommendations remain outstanding.

4. A summary of matters referred to authorities, and the prosecutions and convictions which have
resulted.

No cases have been referred to the Department of Justice during this reporting period.

5. A summary of each report made to the head of the establishment under section (6)(b)(2) during
the reporting period.

No report was made to the Chairman of the FCC under section (6)(b)(2) during the reporting
period.

6. A listing, subdivided according to subject matter, of each audit report issued by the office
during the reporting period, and for each audit report, where applicable, the total dollar value of
questioned costs (including a separate category for the dollar value of unsupported costs) and the
dollar value of recommendations that funds be put to better use.

Each audit report issued during the reporting period is listed according to subject matter and
described within the body of this report.

7. A summary of each particularly significant report.

Each significant audit and investigative report issued during the reporting period is summarized
within the body of this report.

8. Statistical tables showing the total number of audit reports with questioned costs and the total
dollar value of questioned costs.

The required statistical table can be found at Table I to this report.




                                                  28
                  Specific Reporting Requirements
                    of the Inspector General Act
9. Statistical tables showing the total number of audit reports with recommendations that funds be
put to better use and the total dollar value of such recommendations.

The required statistical table can be found at Table II to this report.

10. A summary of each audit report issued before the commencement of the reporting period for
which no management decision has been made by the end of the reporting period (including the
date and title of each such report), an explanation of the reasons why such a management
decision has not been made, and a statement concerning the desired timetable for achieving a
management decision on each such report.

We are reporting eight (8) audits as audits for which no management decision has been made by
the end of the reporting period. Most of these are audits of the E-rate program (see the section of
this report entitled “Oversight of the Universal Service Fund” for more information on this
program) and the questioned costs relate to programmatic noncompliance’s and instances of
waste and abuse. Management has initiated recovery actions for most of these audits; however,
the appeals process for recovery of funds under the E-rate program is lengthy and complex. We
have stated in Congressional testimony that we are not satisfied with the timelines of resolution
for these audits, but we have not developed a recommendation or desired timetable for resolution
of these costs.

The remaining questioned costs are from an audit of an equitable adjustment proposal submitted
by an FCC contractor. This proposal has not yet been negotiated.

Audit Report Date      Audit Report Title                                     Questioned Costs
December 22,           Report on Audit of the E-rate Program at St.                     $136, 593
2003                   Matthews Lutheran School
January 7, 2004        Report on Audit of the E-rate Program at Navajo.                 2,084,399
                       Preparatory School
March 24, 2004         Report on Audit of the E-rate Program at                             68,846
                       Immaculate. Conception School
April 5, 2004          Report on Audit of the E-rate Program at. Children’s               491,447
                       Storefront School
May 19, 2004           Report on Audit of the E-rate Program at St.                         21,600
                       Augustine School
June 7, 2004           Report on Audit of the E-rate Program at United                    934,300
                       Talmudical Academy
June 25, 2004          Report on Audit of NBANC request for Equitable                       30,448
                       Adjustment Proposal
August 12, 2004        Report on Audit of the E-rate Program at                           129,003
                       Annunciation Elementary School
                       Total                                                           $3,896,636

11. A description and explanation of the reasons for any significant revised management decision
made during the reporting period.

No management decisions fall within this category.

12. Information concerning any significant management decision with which the Inspector
General is in disagreement.

No management decisions fall within this category.




                                                  29
           OIG Reports With Questioned Costs
Table I.
Inspector General      Number of                           Unsupported
Reports With            Reports         Questioned Costs      Costs
Questioned Costs

A. For which no
management
decision has been         8               $3,896,636           _
made during the
reporting period.

B. Which were
issued during the         _                    _               _
reporting period.

Subtotals (A+B)           8               $3,896,636           –

C. For which a
management
decision was              2                 $13,008            _
made during the
reporting period.

(i) Dollar value of
disallowed costs          2                 $13,008            _

(ii) Dollar value of
                          _                    _               _
costs allowed

D. For which no
management
decision has been
                          8               $3,896,636           _
made by the end
of the reporting
period.

Reports for which
no management
decision was
                          8               $3,896,636           _
made within six
months of
issuance.




                                   30
     OIG Reports With Recommendations That
           Funds Be Put To Better Use
Table II.
Inspector General
Reports With
                             Number of Reports   Dollar Value
Recommendations That
Funds Be Put To Better
Use

A. For which no
management decision
                                     _                _
has been made during
the reporting period.

B. Which were issued
during the reporting                 _                _
period.

Subtotals (A+B)                      –                –

C. For which a
management decision
                                     _                _
was made during the
reporting period.

(i) Dollar value of
                                     _                _
disallowed costs

(ii) Dollar value of costs
                                     _                _
allowed

D. For which no
management decision
has been made by the                 _                _
end of the reporting
period.

Reports for which no
management decision
                                     _                _
was made within six
months of issuance.




                                    31
